                                        September 8, 2006




MEMORANDUM TO:            Luis A. Reyes
                          Executive Director for Operations



FROM:                     Stephen D. Dingbaum /RA/
                          Assistant Inspector General for Audits


SUBJECT:                  AUDIT OF NRC’S BASELINE SECURITY AND
                          SAFEGUARDS INSPECTION PROGRAM
                          (OIG-06-A-21)


This report presents the results of the subject audit. Agency comments provided at the
exit conference on August 15, 2006, have been incorporated, as appropriate, into this
report. The agency did not provide formal comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit. If you have any questions or comments about our report, please
contact me at 301-415-5915, or Beth Serepca at 415-5911.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                     AUDIT REPORT


                      Audit of NRC’s Baseline Security
                     and Safeguards Inspection Program

                      OIG-06-A-21 September 8, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                       Audit of NRC’s Baseline Security and Safeguards Inspection Program



EXECUTIVE SUMMARY

       BACKGROUND

       The Nuclear Regulatory Commission’s (NRC) Operating Reactor
       Security Assessment Program addresses the Reactor Oversight
       Process’s physical protection cornerstone. The Office of Nuclear
       Security and Incident Response (NSIR) implements the
       requirements of this program, develops its policies and procedures,
       and ensures the uniform implementation of the program. Regional
       administrators are responsible for conducting the assessment
       reviews and allocating security inspection resources. The program
       evaluates the performance of operating commercial nuclear power
       reactor licensees in implementing their security programs and
       communicating the results to licensee managers, NRC managers,
       and other stakeholders.

       A primary feature of the security assessment program is the
       baseline security and safeguards inspection program. NSIR
       provides overall program direction for the security and safeguards
       inspection program and provides each region with full time
       equivalents for the performance of the inspection program.
       Regional administrators direct the implementation of the program
       through supervision of the regional security inspection resources.
       The baseline security and safeguards inspection program was
       revamped after the events of September 11, 2001. In calendar
       years 2004 and 2005, the inspection program was modified to
       focus on new security order requirements. In calendar year 2006,
       the baseline program was implemented in accordance with
       Inspection Manual Chapter 2201 without modification for the first
       time.

       The baseline security and safeguards inspection addresses 12
       “inspectable areas” at nuclear power plants. NRC security
       inspectors from the regional offices review seven of the inspectable
       areas. NSIR staff review two of the areas. Inspections of the three
       remaining areas have not yet been performed. This audit report
       focuses specifically on the portion of the inspection that is
       conducted by the regional security inspectors.

       There are currently 22 regional security inspectors. During
       calendar year 2005, on average, each of the regional security
       inspectors conducted or participated in five inspections and spent
       186 hours per inspection on preparation, inspection, and report
       writing activities. Licensees are billed for the time spent on security
       inspections. The total cost billed to the licensees during calendar
       year 2005 for security inspections was $5,616,468.

                                     i
                Audit of NRC’s Baseline Security and Safeguards Inspection Program




PURPOSE

The objective of this audit was to assess the effectiveness of the
baseline security and safeguards inspection program by examining
the program’s resources, training and qualification requirements,
and the consistency of program implementation.

RESULTS IN BRIEF

The revised baseline security and safeguards inspection program is
proceeding with its first year of full regional implementation. The
Office of the Inspector General found that resource levels
established for this program appear to be sufficient as regions have
been able to complete the program requirements even while the
program is more rigorous than the prior program; however,
improvements are needed in:

   The security training program.

   The subjective approaches used by NRC inspectors in
    determining the depth and scope of review needed to assess
    plant security program elements.

   The historical information provided to the Security Findings
    Review Panel in the inspection finding worksheets.

       Security Training Program Needs Improvement

NRC’s security training program is in need of improvement to
provide assurance that key personnel have the appropriate
knowledge and information to complete the inspection program.
Specifically, (1) regional security inspectors are not receiving
relevant training or refresher training, (2) the qualification boards
are inconsistent, (3) non-security staff with oversight responsibility
are not receiving security training, and (4) the training program has
not been updated.




                              ii
               Audit of NRC’s Baseline Security and Safeguards Inspection Program



This occurred because NRC management has not centralized the
NRC security training program. Without an available, current, and
effective training program, there is no assurance that the security
program is running efficiently and that security personnel have a
consistent level of security knowledge.

      Depth-of-Review Guidance is Lacking

Within the baseline security and safeguards inspection program,
regional security inspectors examine a prescribed number of
specific security program requirements to assess each inspectable
area. However, NRC regional security inspectors employ
subjective approaches to examine each of these requirements.
This occurs because NRC inspection procedures specify the
number and type of requirements to review, but do not provide
specific guidance on what constitutes an adequate review of each
requirement. This can result in inspections that vary in scope and
depth.

      No Systematic Process for Compiling Historical Data

The Security Findings Review Panel needs to have complete
historical information on security-related findings. This is so the
voting panel members can perform their responsibilities of ensuring
NRC is consistent in its regulatory response to findings across the
nuclear industry. Yet, there is no guarantee that the historical
information is complete because there is no systematic process for
compiling the historical data and the existing process relies on the
memory of the regional security inspectors. Furthermore, a
centralized database of security findings maintained by NSIR,
which could serve this purpose, has not been shared with the
regions. As a result, the consistent handling of security findings is
not well supported.

RECOMMENDATIONS

This report makes eight recommendations to assure the provision
of adequate security training and the implementation of an effective
baseline security and safeguards inspection program.

AGENCY COMMENTS

During an exit conference held August 15, 2006, the agency
generally agreed with the audit findings and recommendations and
provided comments concerning the draft audit report. We modified
the report as we determined appropriate in response to these
comments. NRC reviewed these modifications and opted not to
submit formal written comments to this final version of the report.
                            iii
   Audit of NRC’s Baseline Security and Safeguards Inspection Program




[Page intentionally left blank.]




                iv
                                     Audit of NRC’s Baseline Security and Safeguards Inspection Program



TABLE OF CONTENTS

    EXECUTIVE SUMMARY............................................................................. i
    ABBREVIATIONS AND ACRONYMS .......................................................vii
    I.      BACKGROUND ................................................................................. 1
    II.     PURPOSE.......................................................................................... 6
    III.    FINDINGS .......................................................................................... 7
           A.   SECURITY TRAINING PROGRAM NEEDS IMPROVEMENT ....................... 7
           B.   DEPTH-OF-REVIEW GUIDANCE IS LACKING ...................................... 17
           C.   NO SYSTEMATIC PROCESS FOR COMPILING HISTORICAL DATA ......... 23
    IV.     AGENCY COMMENTS .................................................................... 26
    V.      CONSOLIDATED LIST OF RECOMMENDATIONS ........................ 27


    APPENDIX


    A.      SCOPE AND METHODOLOGY....................................................... 29




                                                     v
   Audit of NRC’s Baseline Security and Safeguards Inspection Program




[Page intentionally left blank.]




                vi
                 Audit of NRC’s Baseline Security and Safeguards Inspection Program



ABBREVIATIONS AND ACRONYMS

       DBT     Design Basis Threat
       IMC     Inspection Manual Chapter
       NRC     Nuclear Regulatory Commission
       NSIR    Office of Nuclear Security and Incident Response
       OIG     Office of the Inspector General
       ROP     Reactor Oversight Process




                              vii
   Audit of NRC’s Baseline Security and Safeguards Inspection Program




[Page intentionally left blank.]




                viii
                             Audit of NRC’s Baseline Security and Safeguards Inspection Program



I. BACKGROUND

               In accordance with the Atomic Energy Act of 1954, as amended,
               the Nuclear Regulatory Commission (NRC) is authorized to inspect
               nuclear power plants to protect public health and safety. The NRC
               reactor inspection program assesses, through scrutiny of selected
               samples, whether activities are properly conducted and equipment
               is properly maintained to ensure safe operations. Inspectors
               monitor licensee performance, provide inspection findings to
               licensee management, and conduct followup inspections to ensure
               that the licensee has taken corrective action. NRC regularly
               assesses the overall effectiveness of its inspection program for
               operating reactors through its Reactor Oversight Process (ROP).

               Reactor Oversight Process

               The ROP integrates NRC’s assessment, inspection, and
               enforcement programs to provide tools for inspecting and
               assessing licensee performance in a risk-informed, performance-
               based manner. There are seven “cornerstones” in the regulatory
               oversight framework, which serve as the fundamental building
               blocks for the ROP. Acceptable licensee performance in these
               cornerstones provides reasonable assurance that the overall
               mission of adequate protection of public health and safety is
               achieved.

               One of the seven ROP cornerstones is intended to provide
               assurance that the physical protection systems at licensee sites
               can protect against NRC’s design-basis threat for radiological
               sabotage.1 Licensees are expected to maintain adequate
               protection against threats of sabotage based on an effective
               security program that relies on a defense-in-depth approach.




1
 Security programs at NRC-licensed nuclear power reactors are designed to protect against
specified threats that are termed the Design Basis Threat (DBT). The DBT characterizes the
adversary force composition and characteristics against which certain NRC licensees must
design their physical protection systems and response strategies.


                                              1
            Audit of NRC’s Baseline Security and Safeguards Inspection Program




Secured entrance at a nuclear power plant

The Baseline Security and Safeguards Inspection Program

NRC’s Operating Reactor Security Assessment Program addresses
the ROP’s physical protection cornerstone. The Office of Nuclear
Security and Incident Response (NSIR) implements the
requirements of this program, develops its policies and procedures,
and ensures the uniform implementation of the program. Regional
administrators are responsible for conducting the assessment
reviews and allocating security inspection resources. The program
evaluates the performance of operating commercial nuclear power
reactor licensees in implementing their security programs and
communicating the results to licensee managers, NRC managers,
and other stakeholders.

Based on the information gathered, NRC determines the
appropriate agency response, which varies. The response could
include supplemental inspections, regulatory actions such as
granting licenses and issuing orders, and followup to ensure the
licensee’s corrective actions are effective. Security assessments
are not reported publicly (in contrast with reports on other ROP
cornerstones, which are made public) to prevent adversaries from
obtaining information that could be used to cause harm to the




                             2
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



United States. On April 4, 2006, the Commission approved the
provision to make the cover letters for security inspection reports
available to the public. The first cover letters were made available
to the public in April 2006.

A primary feature of the security assessment program is the
baseline security and safeguards inspection program. NSIR
provides overall program direction for the security and safeguards
inspection program and provides each region with full time
equivalents for the performance of the inspection program.
Regional administrators direct the implementation of the program
through supervision of the regional security inspection resources.
The baseline security and safeguards inspection program was
revamped after the events of September 11, 2001. In calendars
years 2004 and 2005, the inspection program was modified to
focus on the new security order requirements. In calendar year
2006, the baseline security and safeguards inspection program was
implemented in accordance with Inspection Manual Chapter (IMC)
2201 without modification for the first time.

Some of the procedures such as Fitness-for-Duty and Access
Authorization are now more rigorous than before and the Owner-
Controlled Area procedures are entirely new. Additionally, the
procedures are now a mixture of compliance and performance-
based requiring a demonstration of the requirements. NRC IMC
2201, Appendix A, “Security and Safeguards Baseline Inspection
Program,” outlines the specific requirements for the baseline
security and safeguards inspection program.

The baseline security and safeguards inspection program
addresses 12 “inspectable areas” at nuclear power plants. NRC
security inspectors from the regional offices review seven of the
inspectable areas. NSIR staff review two of the areas. Inspections
of the three remaining areas have not yet been performed. This
audit report focuses specifically on the portion of the inspection that
is conducted by the regional security inspectors.

Table 1 lists the 12 baseline security and safeguards procedures
developed to examine the 12 inspectable areas. The table also
indicates which procedures have been implemented and, for those
implemented, whether the review was performed by regional or
NSIR staff.




                             3
                              Audit of NRC’s Baseline Security and Safeguards Inspection Program



                Table 1


                  Baseline Security and Safeguards Inspection Program Procedures

                 Procedure           Procedure           Regional     NSIR      Not Yet
                  Number                Title           Inspection Inspection Implemented
                                 Access
                  71130.01                                    9
                                 Authorization
                  71130.02       Access Control               9
                                 Contingency
                                 Response –
                  71130.03                                                    9
                                 Force-on-Force
                                 Testing
                                 Equipment
                                 Performance,
                  71130.04                                    9
                                 Testing and
                                 Maintenance
                                 Protective
                  71130.05       Strategy                     9
                                 Evaluation
                                 Security Plan
                  71130.06                                                    9
                                 Changes
                                 Security
                  71130.07                                    9
                                 Training
                                 Fitness-for-Duty
                  71130.08                                    9
                                 Program
                                 Owner-
                  71130.09       Controlled Area              9
                                 Controls
                                 Information
                  71130.10       Technology                                                     9
                                 Security
                                 Materials
                  71130.11       Control and                                                   92
                                 Accountability
                                 Physical
                                 Protection of
                  71130.12                                                                      9
                                 Shipments of
                                 Irradiated Fuel




2
  While NSIR has initiated inspections of Materials Control and Accountability at each power plant
in accordance with inspection instructions which will be translated into permanent inspection
procedures, the program has not been fully implemented.


                                                4
                               Audit of NRC’s Baseline Security and Safeguards Inspection Program



                At the conclusion of each security inspection, inspectors present
                their findings to NSIR’s Security Findings Review Panel. The
                Security Findings Review Panel is a multidisciplinary group chaired
                by NSIR and made up of headquarters and regional representation
                that reviews the security inspection findings for accuracy,
                consistency, and relevance to requirements. The findings are
                presented on worksheets used to support the Security Findings
                Review Panel process. After the Security Findings Review Panel
                performs its review, the inspectors prepare inspection reports listing
                significant security and safeguards inspection findings. Such
                findings are then entered into a plant issues matrix so they can be
                monitored and tracked during followup inspections.

                There are currently 22 regional security inspectors. 3 During
                calendar year 2005, on average, each of the then 21 regional
                security inspectors conducted or participated in five inspections and
                spent 186 hours per inspection on preparation, inspection, and
                report writing activities. Licensees are billed for the time spent on
                security inspections. The total cost billed to the licensees during
                calendar year 2005 for security inspections was $5,616,468. Table
                2 presents information on resources expended to perform regional
                baseline security and safeguards inspections during calendar year
                2005.

                Table 2

                   Regional Resource Expenditures for Baseline Security and
                         Safeguards Inspections, Calendar Year 2005
                             Total   Number of Inspection Cost Billed per
                  Region
                         Inspectors         Hours4                Region
                      I       5              5,268              $1,085,710
                     II       5              4,482               $711,265
                    III       6              3,992               $921,843
                    IV        5              5,992              $1,267,535
                  Totals      21            19,734              $3,986,353




3
  Region II added a sixth regional security inspector after calendar year 2005; therefore, the
current number of inspectors is not reflected in Table 2.
4
  Figures are rounded to the nearest hour.



                                                 5
                    Audit of NRC’s Baseline Security and Safeguards Inspection Program



II. PURPOSE

         This audit focused on the portion of the baseline security and
         safeguards inspection program conducted by the regional security
         inspectors. Its objective was to assess the effectiveness of the
         baseline security and safeguards inspection program by examining
         the program’s resources, training and qualification requirements,
         and the consistency of program implementation.




                                     6
                       Audit of NRC’s Baseline Security and Safeguards Inspection Program



III. FINDINGS

          The revised baseline security and safeguards inspection program is
          proceeding with its first year of full regional implementation. The
          Office of the Inspector General (OIG) found that resource levels
          established for this program appear sufficient as regions have been
          able to complete the program requirements even while the program
          is more rigorous than its predecessor program; however
          improvements are needed in:

               The security training program.

               The subjective approaches used by NRC inspectors in
                determining the depth and scope of review needed to assess
                plant security program elements.

               The historical information provided to the Security Findings
                Review Panel in the inspection finding worksheets.


     A. Security Training Program Needs Improvement

          NRC’s security training program is in need of improvement to
          provide assurance that key personnel have the appropriate
          knowledge and information to complete the inspection program.
          Specifically, (1) regional security inspectors are not receiving
          relevant training or refresher training, (2) the qualification boards
          are inconsistent, (3) non-security staff with oversight responsibility
          are not receiving security training, and (4) the training program has
          not been updated.

          This occurred because NRC management has not centralized the
          NRC security training program. Without an available, current, and
          effective training program, there is no assurance that the security
          program is running efficiently and that security personnel have a
          consistent level of security knowledge.

          Security Inspector Training

          NRC requires all of its inspectors to be trained and qualified to
          conduct inspections in accordance with NRC inspection
          procedures. Training requirements for reactor inspectors are
          contained in IMC 1245, “Qualification Program for the Office of
          Nuclear Reactor Regulation Programs.” One of the main objectives




                                        7
           Audit of NRC’s Baseline Security and Safeguards Inspection Program



of this manual chapter is to ensure that NRC staff has the
necessary knowledge and skills to successfully implement the
Office of Nuclear Reactor Regulation programs, which include the
baseline security and safeguards inspection program.

IMC 1245 contains several appendices that detail inspector training
and knowledge requirements. Appendix C-4, Safeguards Inspector
Technical Proficiency Training and Qualification Journal, lists the
specifics for regional security inspectors. These specifics, outlined
in Table 3, include requirements for inspectors to receive (1) seven
initial training courses and (2) refresher training on safeguards
technology every 2 years. Appendix C-4 also provides independent
self-study objectives and on-the-job training requirements.

Table 3

                 Required Security Inspector Training
                            Course
      Course Title                            Course Location
                           Provider
Power Plant                             Self-Study and Classroom
                             NRC
Engineering                             Format
GE Technology                NRC        Technical Training Center
Westinghouse
                             NRC        Technical Training Center
Technology
Physical Security
                             NRC        Technical Training Center
Fundamentals Course
Advanced Physical                       Federal Law Enforcement
                             Other
Security                                Training Center
Defense Industrial                      Federal Law Enforcement
                             Other
Security Course                         Training Center
Introduction to Physical
Security Systems             NRC        Technical Training Center
Course
Safeguards Technology
                             NRC        Technical Training Center
(refresher course)

While IMC 1245 requires all inspectors, including the regional
security inspectors, to meet the training and qualification program
requirements, it also allows for course waivers and deferrals. With
regard to waivers, IMC 1245 states that previous work experience
and training may be accepted as evidence that an individual
already possesses the required knowledge or skills. In such cases,
the division director may grant the individual a waiver that exempts
the individual from certain Appendix C-4 requirements. In addition,
if a course is not available, an individual may request to have the
course deferred. With an approved deferral, an individual may


                            8
                              Audit of NRC’s Baseline Security and Safeguards Inspection Program



                become qualified as a regional security inspector and perform
                security inspections. However, the inspector is still required to take
                the required course when it becomes available.

                Security Inspectors are Not Receiving Necessary Training

                A majority of NRC regional security inspectors have not received all
                seven of the specific training courses that are required by Appendix
                C-4. Three of the four regional branch chiefs stated that if a
                required security course is unavailable, and the regional security
                inspector has previous training or knowledge in the area, the
                regional security inspector will receive a waiver for this course. If
                the regional security inspector does not have previous training or
                knowledge in the area, the branch chief will find alternative training
                for the inspector to take to receive the waiver. OIG reviewed
                training records of all the training courses provided by NRC. OIG
                found that, of the five non-refresher courses offered by the NRC
                Technical Training Center, only two courses focusing on nuclear
                technology were offered on a regular basis. The Physical Security
                Fundamentals course has not been offered since 2000, while the
                Introduction to Physical Security Systems course has been offered
                only once since 2000. OIG determined that none of the 13 regional
                security inspectors who became qualified after September 11,
                2001, had received all 5 of the required non-refresher NRC-
                provided courses.5

                OIG interviewed each of the 22 regional security inspectors and
                more than half commented on the lack of NRC training. Eight of
                the regional security inspectors stated that Appendix C-4 courses
                were not offered at NRC when they were trying to qualify as
                regional security inspectors. Some inspectors stated that they
                received waivers based on their past security experience. Others
                stated that they had to find alternative methods to receive training
                such as on-the-job training, self-study, or training from outside
                sources. One regional manager said the lack of training classes
                makes succession planning difficult. There is no assurance that
                entry-level hires, who lack experience to qualify them for waivers,
                will be able to get the necessary NRC training to qualify as a
                regional security inspector.




5
 The current Appendix C-4 became effective on April 5, 2002; therefore six of the regional
security inspectors who qualified prior to this date are not required to meet these requirements.
Three of the regional security inspectors are not yet qualified.


                                                 9
                               Audit of NRC’s Baseline Security and Safeguards Inspection Program



                Furthermore, despite the requirement for regional security
                inspectors to receive refresher training on safeguards technology
                every 2 years, none of the regional security inspectors have
                received this training in the last 2 years. Twelve of the 22 regional
                security inspectors have been fully qualified6 for more than 2 years
                and therefore are overdue for this refresher course.

                In the absence of the refresher course required by Appendix C-4,
                NSIR has provided annual training activities that are similar to
                refresher training for the last 3 years at the annual security
                counterpart meetings. However, OIG does not believe these
                activities rise to the level of the formalized refresher training
                stipulated by the inspection manual.

                Recommendation

                OIG recommends that the Executive Director for Operations:

                1.     Provide the required initial and refresher security training
                       courses for regional security inspectors at the frequency
                       needed to support qualification requirements.

                Inspector Qualification Boards

                After an individual fulfills or has been granted waivers for the
                Appendix C-4 training requirements, he or she must take an oral
                exam administered by a regional security inspector qualification
                board. The purpose of this board is to confirm the individual has
                the necessary knowledge, skills, and attitudes to independently
                conduct the prescribed NRC inspections. Once an inspector has
                passed the qualification exam, the regional administrator certifies
                that the inspector is fully qualified based on a recommendation from
                the Inspector Qualification Board. After becoming qualified, the
                inspector may conduct full scope inspections independently. IMC
                1245 requires that inspectors be qualified within 24 months7 of
                being hired into the position.




6
  Achieving Full Inspector Qualification allows an individual to independently perform the full
scope of inspection related activities with routine oversight and supervision.
7
  IMC 1245 allows for a 3-month extension to fulfill course requirements for individuals in the
Nuclear Safety Professional Development Program.



                                                10
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



Regional Security Inspector Qualification Boards are
Inconsistent

While all of NRC’s regions conduct qualification board exams for
regional security inspectors, each of these boards is unique with
regard to composition and the method used to develop and
manage questions used during exams. For example, 1) one region
allows the inspector seeking qualification to choose who will sit on
the board, 2) in another region the security branch chief makes this
determination, 3) in another it is the responsibility of the training
coordinator, and 4) in the fourth region, the security branch chief
and the regional security inspector work together to find people to
sit on the qualification board. Another variation is that in one
region, the training coordinator is the chair of the qualification board
while, in another region, a senior manager performs this role.

Regional offices also use different methods to manage the
questions asked during the qualification exams. While each board
member is responsible for creating his/her own questions (based
on IMC 1245, Attachment 2 guidelines), only two regions conduct a
purposeful review to ensure that multiple board members are not
asking the same questions. Furthermore, not all of the regions
track the questions to ensure that the questions asked are
consistent for all regional security inspectors within that region, or
among other regions. Although two regions keep their own
databases of questions, there is no central database of questions
for use by qualification boards; instead, the questions can be
developed specifically for each inspector.

Recommendation

OIG recommends that the Executive Director for Operations:

2.   Establish rules and standards supporting a consistent
     qualification board process across all regions.

Training for Others With Security Oversight Responsibilities

In addition to providing training requirements for inspectors, IMC
1245 also requires that NRC staff have the necessary knowledge
and skills to successfully implement the baseline security and
safeguards inspection program. While the regional security
inspectors are primarily responsible for conducting security
inspections at the plants, there are other NRC employees who play
a significant role in the baseline security and safeguards inspection
program. These are the regional branch chiefs who supervise the



                            11
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



regional security inspectors (referred to as security branch chiefs in
this report), voting members of the Security Findings Review Panel,
and resident inspectors assigned to nuclear power plants. While
these employees have security inspection responsibilities they are
not required to have security training.

In supervising the regional security inspectors, security branch
chiefs are responsible for ensuring the baseline security and
safeguards inspection program is implemented and for reviewing
inspection findings prior to the issuance of the reports. IMC 0320,
“Operating Reactor Security Assessment Program” and IMC 0102,
“Oversight and Objectivity of Inspectors and Examiners at Reactor
Facilities,” provide guidance on the security branch chief’s role in
the inspection program. These inspection manual chapters state
that branch chiefs should take an active role in understanding the
licensee security requirements, inspection activities, and inspection
findings.

Security Findings Review Panel voting members are responsible
for reviewing and formulating a disposition on security inspection
findings. The Security Findings Review Panel charter states that
voting members will review all inspection findings and determine if
errors have been made in the interpretation of the inspection
procedures, validate consistency of the findings, and apply their
security knowledge on the requirements to ensure the findings are
presented correctly. Security Findings Review Panel voting
members are senior level staff within NSIR, the Office of Nuclear
Reactor Regulation, the Office of Nuclear Material Safety and
Safeguards, the Office of the General Counsel, the Office of
Enforcement, the Office of State and Tribal Programs, and regional
Divisions of Reactor Safety and Nuclear Materials Safety.

Resident inspectors play a significant role in security at nuclear
power plants because they provide the front-line presence for NRC
at the sites and observe plant security on a daily basis. IMC 2515,
“Light-Water Reactor Inspection Program – Operations Phase,”
Appendix D, “Plant Status,” states that resident inspectors have a
specific responsibility, outside of inspection activities, to be aware
of plant conditions on a routine basis.




                            12
                              Audit of NRC’s Baseline Security and Safeguards Inspection Program



                Security Oversight Personnel Not Trained

                Certain non-security personnel with security oversight
                responsibilities are not receiving security training. Although all of
                the security branch chiefs have a background in engineering,
                nuclear power plant inspections, and some prior security
                experience, none have worked as regional security inspectors.
                These branch chiefs have not been required to take any security
                courses after being appointed to the security branch chief position.
                Furthermore, while Security Findings Review Panel voting
                members are responsible for deciding if inspection findings are
                adequate, most of these individuals lack a security background.
                Specifically, of the seven Security Findings Review Panel voting
                members8 who attend the meetings on a regular basis, only one
                has professional security experience. Furthermore, none have
                received NRC security training courses and only two have
                observed a security inspection to understand how it works. Five of
                these seven regular Security Findings Review Panel voting
                members stated having a basic security training course for Security
                Findings Review Panel voting members would be helpful.



                          Have NRC Security Findings Review Panel Voting
                              Members Observed a Baseline Security
                                       Inspection? (N=7)

                                                                  28.6%


                                                                                 have seen

                                                                                 have not
                                                                                 seen
                                   71.4%




8
  The seven members who regularly attend the Security Findings Review Panel meetings are
from NSIR, the Office of the General Counsel, the Office of Enforcement, the Office of Nuclear
Reactor Regulation, the Office of Nuclear Material Safety and Safeguards, the Office of State and
Tribal Programs, and Region II.


                                               13
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



Finally, there are no formal security training requirements that
resident inspectors must take to become qualified. Thirty-seven
people were interviewed by OIG to include resident inspectors (8),
regional security inspectors (22), security branch chiefs (4), and
other training relating staff (3). Twenty-seven said it would be
useful for the resident inspectors to be provided with basic security
training. Three regional security inspectors stated that security
training for resident inspectors would be helpful in giving resident
inspectors a greater ability to identify security related issues at their
sites. Two resident inspectors said that basic security training
would put them in a better position to identify security issues at the
plant. A third resident inspector said that training for resident
inspectors is important because resident inspectors are the eyes
and ears on site.

After the exit conference, officials provided comments that the
resident inspector qualification records include an On-the-Job
Activity to familiarize themselves with the security plan and its
implementation for their assigned facility. Additionally, NSIR is
developing a 4-hour course for resident inspectors and NRC
managers on security design basics and an overview of the security
requirements. However this is not an equivalent for the training
discussed in this section.


         Would Security Training for Resident Inspectors
                       Be Useful? (N=37)



               27.0%


                                                          Useful
                                                          Not Useful



                                              73%




                            14
           Audit of NRC’s Baseline Security and Safeguards Inspection Program




Recommendation


OIG recommends that the Executive Director for Operations:

3.   Develop and provide a security training program for non-
     security personnel with security oversight responsibilities.

Security Training Program Updates

The second objective of IMC 1245 states that the inspector training
and qualification program should remain effective in preparing
inspectors (including regional security inspectors) to implement the
inspection program. As such, the baseline security and safeguards
inspection program must reflect any changes in the security
environment to ensure that inspectors are receiving appropriate
training. This is accomplished through periodic updates to the
program.

After the terrorist attacks of September 11, 2001, NRC identified
that improvements are needed in the overall security training
program to address 1) the changing threat environment, 2)
advancements in security technologies, and 3) adversary
capabilities. Based on OIG’s review of the training records, the
agency has not implemented any improvements and the training
program remains unchanged since April 2002.

Pursuant to its responsibility for nuclear security programs, NSIR in
2005 created the Integrated Training Development Working Group
to determine how to create a training program for NSIR staff. NSIR
identified this training need because staff have varied security
backgrounds. According to an NSIR manager, it is important that
staff have a shared basis of knowledge on security. The working
group has been developing a manual chapter for training NSIR
staff. An NSIR manager stated that as of June 2006, about 80
percent of this new manual chapter was drafted.

While NSIR managers had envisioned that the new manual chapter
would replace Appendix C-4, there has been no formal movement
to facilitate this.

Development of the Training Program Delayed

According to an NSIR manager, progress on the development of
the security training program has continued at a much slower pace



                           15
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



than first anticipated because resources have been diverted to
complete emergent work assignments. In addition, while senior
NSIR officials state that they have overall responsibility for the
security inspection training program, no one has responsibility at
the operational level.

Consistent Level of Knowledge is not Assured

Without an available, current, and effective training and qualification
program there is no assurance that the security program is running
efficiently and that security personnel have a consistent level of
security knowledge. Most regional security inspectors have an
extensive background in the security field. However, without a
consistent qualification process there is no assurance that regional
security inspectors have received the appropriate training to
conduct security inspections in accordance with the expectation of
NRC program management. Furthermore, key non-security
personnel need exposure to security topics to make better informed
decisions and to be able to identify security issues.


Recommendations

OIG recommends that the Executive Director for Operations:

4.   Update the security inspector training program to ensure
     course material is current and relevant.

5.   Identify a training coordinator for all security related training to
     ensure a centralized program effort.




                            16
                 Audit of NRC’s Baseline Security and Safeguards Inspection Program



B. Depth-of-Review Guidance is Lacking

     Within the baseline security and safeguards inspection program,
     regional security inspectors examine a prescribed number of
     specific security program requirements to assess each inspectable
     area. However, NRC regional security inspectors employ
     subjective approaches to examine each of these requirements.
     This occurs because NRC inspection procedures specify the
     number and type of requirements to review, but do not provide
     specific guidance on what constitutes an adequate review of each
     requirement. This can result in inspections that vary in scope and
     depth.

     Inspection Requirements

     NRC uses the term “sample” to refer to specific inspection
     requirements within each inspectable area and the term “sample
     size” to refer to the number of inspection requirements reviewed by
     the inspector in assessing the inspectable area. Neither term is
     used to describe the number of items reviewed within each
     “sample”; this determination is left to the inspector’s discretion. For
     example, one “sample” within the security inspection procedures for
     the inspectable area, Access Control, relative to search activities,
     asks the inspectors to:

     Observe in-processing searches of personnel, packages and
     vehicles at access locations during peak ingress times to ensure
     compliance with established procedures. Performing this
     observation would constitute completion of one sample associated
     with the Access Control inspectable area, and it would be up to the
     regional security inspector to determine how many searches to
     observe.




                                 17
            Audit of NRC’s Baseline Security and Safeguards Inspection Program




Nuclear power plant security checkpoint

In accordance with the policy for the operating reactor inspection
program found in IMC 2515, “Light-Water Reactor Inspection
Program – Operations Phase,” Appendix A, the inspection activities
and minimum sample sizes must be completed to provide an
adequate assessment for each cornerstone under review. IMC
2515 further stipulates that sample sizes specified in the inspection
procedures are based on the relative importance of the area
covered by the procedure because the underlying concept of the
risk-informed inspection program is that it intends to examine
samples which have a greater probability of impacting safe and
secure plant operations.

As stated in the Background section of this report, regional security
inspectors perform inspections for 7 of the 12 inspectable areas
addressed in the baseline security and safeguards inspection.
Table 4, shown below as contained in IMC 2201 Appendix A, lists
the seven inspectable areas and the respective sample sizes listed
in the procedure.




                            18
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



Table 4

 BASELINE SECURITY AND SAFEGUARDS INSPECTABLE AREAS
               AND ASSOCIATED SAMPLE SIZES
 Attachment Number       Inspectable Area   Sample Size
      71130.01       Access Authorization      48
      71130.02       Access Control            16
      71130.04       Equipment Performance,    47
                     Testing, and
                     Maintenance
      71130.05       Protective Strategy       30
                     Evaluation
      71130.07       Security Training         41
      71130.08       Fitness-For-Duty          22
                     Program
      71130.09       Owner-Controlled Area     12
                     Controls

Subjective Approach is Used

NRC regional security inspectors employ subjective approaches to
decide how many items to review for each inspection requirement
“sample,” which can result in inspections that vary in scope and
depth. OIG spoke with 22 regional security inspectors, 13 of whom
reported they independently determine the scope and depth of the
examination afforded to each sample. For example, relative to the
Access Control area “search activities” inspection requirement, an
inspector may choose to observe any number of processing
searches he/she deems appropriate.

Auditors were unable to review records to illustrate this point
because such records are not maintained by NRC. However,
auditors observed the following example of how variances could
exist in the scope and depth of the inspector’s handling of the
samples. In fulfilling an inspection procedure designed to verify
and assess a licensee’s protective strategy, a regional security
inspector attempted to examine all of the licensee’s defensive
positions, but was advised by the branch chief to examine only a
sample of the defensive positions. Because the procedures are
silent with respect to the number of items to review, the procedure
was being performed in the manner the inspector believed was
best. Yet, in this case, the inspector’s supervisor, the branch chief,
disagreed and the inspector subsequently modified his approach.
Based on OIG interviews with several branch chiefs, however, the
inspector would not normally receive this type of guidance from his
or her branch chief as they typically rely on the inspectors to


                            19
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



determine how many items to review per sample. One branch chief
said he would use trips to observe the inspectors as an opportunity
to discuss how the inspectors arrive at the number of items
reviewed. Another said each line item must be completed and the
inspector decides what will satisfy this requirement.

The regional security inspectors verified their latitude to
independently determine the number of items to review in the
completion of the inspection procedures. When asked how sample
sizes are determined, more than half of the regional security
inspectors provided the following responses:

•   Each inspector needs to be comfortable with the amount of work
    they did and be able to justify why they did it.

•   There is no correlation between the sample sizes designated in
    the procedures and the amount of work done.

•   The amount of inspecting that needs to be performed depends
    on the inspector’s assessment of the line item from the
    procedures.

•   Determination of the number of items within a sample to review
    is left up to the inspector.

No Guidance on What Constitutes Adequate Review

While NRC inspection procedures specify the number and type of
program elements to review, they do not provide specific guidance
on what constitutes an adequate review of each element.

NSIR staff has not provided necessary guidance on the scope and
depth of the examinations because they believe the inspectors
should determine what constitutes an appropriate examination.
Furthermore, NSIR staff explained that there are other opportunities
for inspectors to communicate with each other on their methods of
inspecting and thereby gain consistency. NSIR staff said that such
cross-pollination occurs regularly during bimonthly secure
teleconferences (“counterpart calls”) held for regional and NSIR
security inspectors to discuss inspection issues and during weekly
Security Findings Review Panel meetings, which always include
regional and NSIR representation.

Although NSIR staff told OIG that guidance on the number of
examples to review was not needed, OIG contends that such
guidance is necessary to ensure a reliable review across the


                            20
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



regions. For example, another sample that can be reviewed as part
of the Access Control inspection procedure asks the inspector to:

Verify that the licensee has a program in place for controlling and
accounting for hard keys to protected and vital areas and the
replacement or changing the core of locks if a key is lost or
compromised.

The scope of work to complete this sample could be interpreted in
various ways depending on 1) the amount of time an inspector has
to perform the inspection procedure, 2) the inspector’s experience
with the licensee under review, and 3) the inspector’s comfort level
with the inspection procedure. An inspector might:

•   Examine all (100 percent) of the keys and key changes ensuring
    they are located as identified in the control journal and that
    changes were all performed in accordance with the procedures.

•   Review the applicable control journals, randomly selecting a few
    keys from each page for a complete review.

•   Review the procedures, interview licensee employees about the
    implementation of the procedures, and observe how the keys
    are stored.

Any of these methods would constitute completion of the sample;
yet, the depth of the review and the assurance gained that
procedures are followed would vary greatly. Guidance is needed to
ensure that a consistent standard of review is achieved.

Inadequate Review Could Result

The lack of guidance on the number of items to review and the
subjectivity of the inspection procedures could prevent the
licensees from receiving an adequate review by the regional
security inspectors because of the varied interpretations that could
be applied to the performance of the procedures. The adequacy of
assessing licensee performance through the baseline inspection
program depends on the quality (scope and depth of the inspector’s
examination) of the samples chosen for inspection.




                            21
           Audit of NRC’s Baseline Security and Safeguards Inspection Program



Recommendations

OIG recommends that the Executive Director for Operations:

6.   Include guidance in the baseline security and safeguards
     inspection procedures to ensure inspectors review an
     adequate number of sample items to assess the effectiveness
     of the licensee’s security program.

7.   Implement training on how to select an adequate number of
     sample items.




                           22
                 Audit of NRC’s Baseline Security and Safeguards Inspection Program



C.   No Systematic Process for Compiling Historical Data

     The Security Findings Review Panel needs to have complete
     historical information on security-related findings. This is so the
     voting panel members can perform their responsibilities of ensuring
     NRC is consistent in its regulatory response to findings across the
     nuclear industry. Yet, there is no guarantee that the historical
     information is complete because there is no systematic process for
     compiling the historical data and the existing process relies on the
     memory of the regional security inspectors. Furthermore, a
     centralized database of security findings, which is maintained by
     NSIR, could serve this purpose but has not been shared with the
     regions. As a result, the consistent handling of security findings is
     not well supported.

     Security Findings Review Panel Charter

     The Security Findings Review Panel charter requires the use of
     complete historical information on security-related findings. The
     panel meets its objective through a review of the security findings,
     unresolved items, and potential findings resulting from the security
     inspections and then approves the approach to disposition them.
     The panel consists of designated senior level staff within NSIR, the
     Office of Nuclear Reactor Regulation, the Office of Nuclear Material
     Safety and Safeguards, the Office of the General Counsel, the
     Office of Enforcement, the Office of State and Tribal Programs, and
     regional Divisions of Reactor Safety and Nuclear Materials Safety.

     The panel meets on a weekly basis and, in preparation for the
     meeting, members are provided with Security Findings Review
     Panel worksheets on each inspection finding. The worksheets,
     which are prepared and submitted by the regional security
     inspectors, include a brief summary of the issues and a description
     of the requirement that was violated, as well as the region’s
     recommendation for adjudicating the issue. When a common or
     programmatic weakness has affected multiple physical protection
     attributes, plants, sites, or functions, this information must also be
     included on the Security Findings Review Panel worksheet. To
     fulfill this information need, the regional security inspectors must
     provide the following historical information to inform the panel about
     the handling of prior issues:




                                 23
            Audit of NRC’s Baseline Security and Safeguards Inspection Program



•   Related historical findings from this licensee.

•   Related historical findings from other licensees within the
    region.

•   Historical precedent – if this finding has been through the
    Security Findings Review Panel previously.

Process Relies on Memory

There is no guarantee that the historical information the panel
receives from the Security Findings Review Panel worksheets is
complete because the process for compiling the historical
information is not systematic and relies on the memory of the
regional security inspectors.

Regional security inspectors and their branch chiefs said
considerable time and effort is invested in preparing the Security
Findings Review Panel worksheets for the panel meetings and that
they rely mostly on memory to complete this portion of the
worksheet. Inspectors reported keeping “mental notes” of the
issues they have seen. Two inspectors said they have on occasion
had to ask the Security Findings Review Panel coordinator, from
NSIR, to provide them with information on past findings because
they could not remember and needed clarification.

Regional security inspectors characterized the process of
documenting historical security findings information as relying on
the information they know and excluding the universe of information
that might be available.

Database Not Shared With Regions

Security Findings Review Panel worksheets are compiled primarily
based on regional security inspectors’ memory because the regions
have not been provided access to the database of security findings.
NSIR maintains a centralized database compiled from data
contained on the Security Findings Review Panel worksheets;
however, it is not always up to date and has not been shared with
the regions. NSIR staff explained that the database is not up to
date because there is a lack of staff to complete and maintain the
database. They also said that they have been unable to share the
database with the regions because of the logistics associated with
storing and sharing safeguards information. Despite this concern,




                            24
           Audit of NRC’s Baseline Security and Safeguards Inspection Program



NRC has overcome the logistical issues at various times and used
the database to provide statistics quickly to senior NRC managers,
Congress, and others.

Consistent Handling of Security Findings is Not Well
Facilitated

Because the database of security findings is not shared with the
regions, the handling of security findings is not well facilitated as
the Security Findings Review Panel must rely on the memory of the
regional security inspectors.

A systematic approach to maintaining security findings would
benefit regional security inspectors, who said they spend
considerable time and effort preparing the Security Findings
Review Panel worksheets. It would also ensure that the Security
Findings Review Panel has access to reliable and complete
historical information and efficiently meets its objective of
performing a thorough review of the security findings.

Recommendation

OIG recommends that the Executive Director for Operations:

8.   Maintain and share the NSIR database of security findings
     with the regions.




                           25
                   Audit of NRC’s Baseline Security and Safeguards Inspection Program



IV. AGENCY COMMENTS

        During an exit conference held August 15, 2006, the agency
        generally agreed with the audit findings and recommendations and
        provided comments concerning the draft audit report. We modified
        the report as we determined appropriate in response to these
        comments. NRC reviewed these modifications and opted not to
        submit formal written comments to this final version of the report.




                                   26
                    Audit of NRC’s Baseline Security and Safeguards Inspection Program



V. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.   Provide the required initial and refresher security training
             courses for regional security inspectors at the frequency
             needed to support qualification requirements.

        2.   Establish rules and standards supporting a consistent
             qualification board process across all regions.

        3.   Develop and provide a security training program for non-
             security personnel with security oversight responsibilities.

        4.   Update the security inspector training program to ensure
             course material is current and relevant.

        5.   Identify a training coordinator for all security related training to
             ensure a centralized program effort.

        6.   Include guidance in the baseline security and safeguards
             inspection procedures to ensure inspectors review an
             adequate number of sample items to assess the effectiveness
             of the licensee’s security program.

        7.   Implement training on how to select an adequate number of
             sample items.

        8.   Maintain and share the NSIR database of security findings
             with the regions.




                                    27
Audit of NRC’s Baseline Security and Safeguards Inspection Program




[Page intentionally left blank.]




                28
                   Audit of NRC’s Baseline Security and Safeguards Inspection Program


                                                                         Appendix A
SCOPE AND METHODOLOGY

       Auditors reviewed the effectiveness of the baseline security and
       safeguards inspection program by examining the program’s
       resources, training and qualification requirements, and the
       consistency of program implementation.

       The OIG audit team reviewed relevant criteria, including NRC IMC
       1245, “Qualification Program for the Office of Nuclear Reactor
       Regulation Program”; and Inspection Procedure 71130, “Physical
       Protection.” The audit team also reviewed the Security Findings
       Review Panel charter.

       Auditors interviewed NSIR and regional staff to better understand
       the development, implementation, and management of the
       inspection program. Auditors interviewed regional security
       inspectors in all four regional offices and observed a baseline
       security and safeguards inspection at one site in each of the NRC
       regions to understand how the inspection program is applied.
       Auditors interviewed licensee security staff at four reactor sites to
       obtain their comments concerning the baseline security and
       safeguards inspection program.

       Auditors compared training records of the regional security
       inspectors with the courses that are required by IMC 1245
       Appendix C-4, “Safeguards Inspector Technical Proficiency
       Training and Qualification Journal,” to determine what training the
       inspectors were receiving. In addition, auditors reviewed Human
       Resources Management System records for calendar year 2005 to
       determine how regional inspectors spend their time.

       This work was conducted from December 2005 through April 2006,
       in accordance with generally accepted Government auditing
       standards and included a review of management controls related to
       audit objectives. The work was conducted by Beth Serepca, Team
       Leader; Shyrl Coker, Audit Manager; David Ditto, Senior
       Management Analyst; and Rebecca Underhill, Management
       Analyst.




                                   29
